<html>
<title> - U.S. COUNTERTERRORISM PRIORITIES AND CHALLENGES IN AFRICA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                    U.S. COUNTERTERRORISM PRIORITIES
                        AND CHALLENGES IN AFRICA

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 of the

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 17, 2019

                               __________

                           Serial No. 116-79

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      



                 Available on: http://www.govinfo.gov,
                         house.oversight.gov or
                             docs.house.gov
                             
                             
                             
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
38-739 PDF             WASHINGTON : 2020 
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Debbie Wasserman Schultz, Florida    Michael Cloud, Texas
John P. Sarbanes, Maryland           Bob Gibbs, Ohio
Peter Welch, Vermont                 Ralph Norman, South Carolina
Jackie Speier, California            Clay Higgins, Louisiana
Robin L. Kelly, Illinois             Chip Roy, Texas
Mark DeSaulnier, California          Carol D. Miller, West Virginia
Brenda L. Lawrence, Michigan         Mark E. Green, Tennessee
Stacey E. Plaskett, Virgin Islands   Kelly Armstrong, North Dakota
Ro Khanna, California                W. Gregory Steube, Florida
Jimmy Gomez, California              Fred Keller, Pennsylvania
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
                Dan Rebnord, Subcommittee Staff Director
                   Matthew Patane, Professional Staff
                     Amy Stratton, Assistant Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director

                   Subcommittee on National Security

               Stephen F. Lynch, Massachusetts, Chairman
Jim Cooper, Tennesse                 Jody B. Hice, Georgia, Ranking 
Peter Welch, Vermont                     Minority Member
Harley Rouda, California             Paul A. Gosar, Arizona
Debbie Wasserman Schultz, Florida    Virginia Foxx, North Carolina
Robin L. Kelly, Illinois             Mark Meadows, North Carolina
Mark DeSaulnier, California          Michael Cloud, Texas
Stacey E. Plaskett, Virgin Islands   Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Clay Higgins, Louisiana

                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on December 17, 2019................................     1

                               Witnesses

Judd Devermont, Director, Africa ProgramCenter for Strategic & 
  International Studies
    Oral statement...............................................     5

Adotei Akwei, Deputy Director for Advocacy and Government 
  RelationsAmnesty International
    Oral statement...............................................     7

Alexis Arieff, Specialist in African AffairsCongressional 
  Research Service
    Oral statement...............................................     9

Joshua Meservey, Senior Policy Analyst, Africa and the Middle 
  EastThe Heritage Foundation
    Oral statement...............................................    10

*Written opening statements, and the written statements for 
  witnesses are available at the U.S. House Repository: https://
  docs.house.gov.

                           Index of Documents

There were no additional documents entered into the record for 
  this hearing.



                    U.S. COUNTERTERRORISM PRIORITIES

                        AND CHALLENGES IN AFRICA

                              ----------                              


                       Tuesday, December 17, 2019

                   House of Representatives
                  Subcommittee on National Security
                          Committee on Oversight and Reform
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:29 p.m., in 
room 2157, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Welch, Hice, Gosar, Cloud, 
and Higgins.
    Mr. Lynch. The subcommittee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    This hearing is entitled U.S. Counterterrorism Priorities 
and Challenges in Africa. I now recognize myself for five 
minutes to give an opening statement.
    Today we will examine how various terrorist organizations 
across the African continent continue to threaten U.S. national 
security interests as well as exploring efficacy of U.S. and 
international counterterrorism efforts to contain, degrade, and 
ultimately defeat these terrorist threats.
    On October 4, 2017, four U.S. Special Ops soldiers, 
Sergeant First Class Jeremiah Johnson, Staff Sergeant Bryan 
Black, Staff Sergeant Dustin Wright, and Sergeant La David 
Johnson were tragically killed in an ambush in the western part 
of Niger. At the time, many Americans did not know that U.S. 
forces were deployed in that part of Africa, and the tragedy 
generated significant interest in the U.S. counterterrorism 
mission there.
    Since then, the security and situation in many parts of 
Africa, especially the Sahel, has continued to deteriorate. In 
early 2017, three militant organizations, including Al Qaeda 
and the Islamic Maghreb or AQIM, merged to create Jama'at Nasr 
al-Islam wal Muslimin or JNIM, which the State Department has 
designated as a foreign terrorist organization in September 
2018.
    Meanwhile, ISIS Greater Sahara, an affiliate of ISIS core 
in Iraq and Syria, remain active and continues to target local 
military and police forces in Mali, Niger, and Burkina Faso, as 
well as U.S. French and U.N. peacekeeping forces. Just last 
week, militants killed 71 soldiers in an Army camp in western 
Niger, about 115 miles from where the assault on U.S. forces 
took place in October 2017.
    In the Lake Chad basin region, Boko Haram, which in local 
dialect means western education is forbidden, has carried out 
hundreds of deadly attacks in Nigeria, Cameroon, Niger, and 
Chad. In 2016, ISIS West Africa broke away from Boko Haram and 
created a splinter group which continues to wage guerilla war 
across northeastern Nigeria. According to the International 
Crisis Group, and I quote, "has cultivated a level of support 
among local civilians that Boko Haram has never enjoyed and has 
turned neglected communities into the area and islands in Lake 
Chad into a source of economic support," closed quote.
    In Somalia, Al-Shabaab is fighting to replace the Somali 
Government with a strict interpretation of Sharia law but also 
carries out attacks in neighboring countries, including Kenya 
and Uganda, and maintains a close relationship with al-Qaeda. 
Meanwhile, ISIS maintains affiliates in the Sinai, Libya, and--
why don't I yield to you for five minutes?
    Mr. Hice. Thank you, Mr. Chairman, and I welcome our 
panelists who are here today. You know, there's nothing 
partisan about eradicating terrorism from every part of our 
globe, and this is just another example as to how this 
subcommittee can work together for the American people. This 
hearing is important to draw attention to not only what is 
occurring in the Sahel region of Africa but also the rest of 
the continent.
    To date, there are more than four major active terrorist 
organizations fighting to gain a stronghold in the fragile 
states throughout Africa. One militant Islamic terrorist group, 
Boko Haram, has horrifically killed over 20,000 people and 
displaced more than 2 million during their reign of terror 
throughout Nigeria and West Africa.
    The U.S. has played an important role in supporting 
partners and allies in the region to combat Islamic terrorist 
organizations. Despite these efforts, the number of terrorist 
attacks in the region, like the Sahel, nearly doubled in 2018, 
and attacks in the Sub-Saharan area have also increased 
dramatically.
    By historical standards, the U.S., under the Trump 
administration, is providing a record high number of 
counterterrorism resources to African countries. U.S. 
counterterrorism efforts in the region include things like 
foreign assistance, public diplomacy efforts, military 
assistance, and intelligence programs.
    The U.S. Department of Defense and State Department are 
actively engaged in these counterterrorism efforts. The State 
Department provides nearly $280 million of funding for Africa 
counterterrorism efforts each year. Additionally, the 
Department of Defense spends at least $500 million a year for 
counterterrorism efforts in the area.
    And the U.S. taxpayer is not the only ones involved. The 
U.S. has deployed thousands of brave American servicemen and 
women to Africa for a variety of important missions. At the end 
of 2018, it has been reported that nearly 7,200 Department of 
Defense personnel were assigned to U.S. Africa Command. 
Additionally, Special Operation forces in Africa had over a 
thousand of our finest troops operating in 12 African 
countries. Their mission is, quote, "advise local forces 
battling a variety of terrorist groups," unquote. It is a great 
mission.
    With that, let's never forget people like Sergeant First 
Class Jeremiah Johnson, Staff Sergeant Bryan Black, Staff 
Sergeant Dustin Wright, and Sergeant La David Johnson. These, 
on October 4, 2017, gave their life, and there were others who 
were severely injured during that ambush in the area of Niger 
near the Mali border.
    I will conclude my remarks by saying this: The Trump 
administration prioritized developing a plan for U.S. security 
assistance to Africa because, and I quote, "we understand that 
lasting stability, prosperity, independence, and security on 
the African continent are in the national security interests of 
the United States," unquote.
    There is a lot of work to be done on this topic. Mr. 
Chairman, I look forward to working with you on this serious 
issue of combating terrorism in Africa.
    I further look forward to hearing from each of our 
panelists, and again, I welcome you and thank you for being a 
part of this hearing today.
    With that, Mr. Chairman, I yield back.
    Mr. Lynch. The gentleman yields. I am going to reclaim my 
time.
    ISIS maintains affiliates in the Sinai, Libya, and there is 
a small but troubling ISIS-linked cell growing now in 
Mozambique. The nonpartisan Africa Center for Strategic Study 
reports that overall, in 2018, witnessed a, quote, "record 
level of activity as terrorism on the continent continues its 
steady upward trend."
    Over the past decade, violent events in Africa increased 
tenfold from 288 attacks linked to militant groups in 2009 to 
3,050 in 2018. The center also estimates that there are 
currently two dozen active militant groups operating in Africa, 
more than double the number from 2010.
    U.S. counterterrorism efforts in Africa to date have 
focused on enhancing the military and security capabilities of 
regional partners through training, equipment support, and 
operational support and bilateral assistance. I have personally 
led several bipartisan congressional delegations to examine key 
aspects of capacity building and security activities in the 
region, including a visit to Nigeria to review operations 
conducted by the Multinational Joint Task Force consisting of 
military units from Nigeria, Cameroon, Chad, and other nations.
    The U.S.-backed MJTF seeks to counter the threat of Boko 
Haram and ISIS West Africa. We have also visited Camp 
Lemmonier, a forward operating base in Djibouti, where more 
than 4,000 U.S. military and civilian personnel are deployed in 
support of regional stabilization, security cooperation, 
antipiracy, and crisis response operations in the Horn of 
Africa.
    Most recently, we visited Algeria to examine the progress 
of trans Sahara counterterrorism partnership, a multinational 
program that is led by the State Department to prevent the 
spread of violent extremism in west and north Africa and 
reviewed the allocation of $1.3 million in U.S. bilateral aid 
that Algeria recently received for military education and 
training.
    Following the September 11, 2001, terrorist attacks, our 
national counterterrorism strategy has prioritized the 
degradation of terrorist threats originating and operating in 
the Middle East. However, U.S. national security demands that 
we also maintain sustained pressure on terrorist networks in 
Africa. As noted by Grant Harris, the former Senior Director 
for African Affairs at the National Security Council under 
President Obama, the misconception that Africa is optional or 
irrelevant to U.S. national security is, quote, "dangerous 
given the boon to terrorist recruitment and operations 
generated by unstable, weak, and failed governments."
    African Nations currently occupy 17 of the top 25 slots on 
the fragile states index issued by the independent Fund for 
Peace earlier this year. Moreover, it is critical for the U.S. 
to develop a comprehensive counterterrorism approach in the 
region that optimizes American military support, security 
cooperation, and assistance while advancing diplomatic 
solutions, civil society reforms, and economic initiatives to 
promote regional stability in the long term.
    In his 2019 posture statement to Congress, General Thomas 
Waldhauser, Commander of U.S. Africa Command, stated that, 
quote, "very few, if any, of America--of Africa's--challenges 
can be resolved using only military force," closed quote. But 
to the detriment of enduring regional stability, President 
Trump has consistently proposed massive cuts to international 
development funding, including a Fiscal Year 2020 budget 
proposal that recommends a 24 percent or $40 billion cut of the 
State Department and U.S. agencies for international 
development.
    The current administration has also been slow to fill the 
Africa policy vacancies, and according to the Carnegie 
Endowment for International Peace, quote, "shows no signs of 
mounting a vigorous, civilian-oriented strategy to address the 
challenges that do exist," closed quote.
    Continued oversight of U.S. counterterrorist efforts in 
Africa will be critical to addressing threats to U.S. national 
security emanating from the region. To this end, I look forward 
to discussing these issues with today's witnesses, and I will 
now introduce our witnesses.
    Mr. Judd Devermont, Director of the African Program, Center 
for Strategic and International Studies. Mr. Adotei Akwei, 
Deputy Director for Advocacy and Government Relations for 
Amnesty International. Ms. Alexis Arieff, Specialist in African 
Affairs for the congressional Research Service. Mr. Joshua 
Meservey, Senior Policy Analyst, Africa and Middle East with 
The Heritage Foundation.
    Also, in addition to the witnesses we have today, the 
subcommittee also invited Dr. Joseph Siegle, Director of 
Research at the Africa Center for Strategic Studies, to testify 
during today's hearings. Unfortunately, despite our repeated 
requests, the Department of Defense never responded to confirm 
Dr. Siegle's ability to attend. And I know that he expressed 
some interest in attending, but we did not get the approval 
from the Defense Department to allow that to happen which is 
unfortunate.
    So, with that, and with our witnesses in attendance, would 
you all please rise and raise your right hand.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that all the witnesses have answered in 
the affirmative. Thank you, and please be seated.
    The microphones are sensitive, so please hold them close 
and speak directly into them. Without objection, your written 
statements will be made part of the record, and with that, Mr. 
Devermont, you are now recognized to give an oral presentation 
of your testimony for five minutes.

 STATEMENT OF JUDD DEVERMONT, DIRECTOR, AFRICA PROGRAM, CENTER 
             FOR STRATEGIC & INTERNATIONAL STUDIES

    Mr. Devermont. Chairman Lynch, Ranking Member Hice, and 
members of the subcommittee, thank you for inviting me to 
testify on this important topic.
    Today I will discuss the current extremist and security 
landscape across Sub Saharan Africa, explain why ISIS, al-
Qaeda, and other extremist groups pose a significant threat to 
U.S. strategic and foreign policy interests, and present some 
recommendations to counter violent extremism in the region.
    Sub Saharan Africa has experienced a rise in terrorism over 
the past two decades. The threat has become more sophisticated, 
lethal, and geographically dispersed. While Africa's homegrown 
extremist groups have local objectives and disproportionately 
target regional governments and civilians, their affiliation 
with global terrorist networks have contributed to more 
efficient operations, slicker media propaganda, and in some 
cases, increased financial resources. The terrorist networks, 
their affiliates, and other extremist groups now operate in 
west, east, central, and southern Africa, having conducted 
operations in approximately 17 Sub Saharan African countries.
    I believe that terrorism in Sub Saharan Africa endangers 
U.S. citizens and economic interests abroad, entangles the 
United States in expensive peacekeeping and humanitarian relief 
efforts, and weakens U.S. standing in strategic alliances 
around the world while our foreign adversaries grow in strength 
and influence.
    While it's unwise to fully discount an attack on the 
homeland, there has been limited open source reporting to 
indicate the possibility of such a high impact scenario. 
Indeed, it has been almost a decade to the day since the 
Nigerian attempted to detonate explosives on a flight to 
Detroit on Christmas Day 2009.
    Let me discuss these threats in greater detail. First, 
ISIS, al-Qaeda, and other extremist groups have targeted U.S. 
persons and U.S. facilities. There have been plots to attack 
U.S. embassies, and this year a car bomb was detonated at the 
gates of Baledogle Air Force where U.S. troops train Somali 
soldiers. These groups have also attacked soft targets where 
expatriates congregate, including the Westgate Mall in Nairobi, 
Kenya, in 2013 and the Radisson Blu Hotel in Bamako, Mali, in 
2015.
    Two. The U.S. funds peacekeeping and humanitarian relief 
efforts to respond to the devastation wrought by extremism. The 
U.N. mission in Mali has an annual budget of $1.18 billion, and 
USAID provided more than $130 million in humanitarian 
assistance to Mali, Burkina Faso, and Niger in the Fiscal Year 
2019.
    And third. The persistence of terrorism, coupled with the 
perception that the United States is reducing its terrorism 
engagement, threatens to undercut U.S. leadership. Our European 
and African partners have expressed fears about Washington's 
wavering commitment. Our adversaries, especially Russia, have 
exploited this perceived vacuum, signing defense agreements 
with Sahelian countries to assist in counterterrorism 
operations.
    I think the key study of Mozambique really illustrates the 
threats posed by extremism and the implications for U.S. 
national security interests. In October 2017, armed men 
attacked three police stations in the oil rich Cabo Delgado 
region. From that first attack to August 2019, there was more 
than 178 attacks leaving over 150 people dead, including a 
contractor who worked for a U.S. oil company.
    These terrorism activities threaten U.S. investments in 
what is described as one of the largest LNG finds in the world. 
In June 2019, ISIS claimed this group as an affiliate and part 
of its central African province. The Mozambican Government, 
increasingly alarmed by the threat, appealed to Moscow for 
assistance, precipitating the brief entrance of Russian private 
military contractors. The Mozambique case study in sum shows 
how local extremist groups leverage local grievances, forge 
ties with global extremist networks to sow violence and 
threaten U.S. economic interests. It also demonstrates how U.S. 
adversaries exploit these developments, proffering security 
assistance as an alternative to U.S. engagement.
    In my view, we need to rethink our investments, 
interventions, and partnerships. While it's dangerous to 
withdraw and disengage, it's also ill advised to continue as we 
have for the past two decades. Failure to remain active and to 
innovate will provide space for extremist groups to plan and 
execute attacks.
    I just have a couple of recommendations. First, we need to 
invest in defense institution building. Many African militaries 
need capacity but training, but they also need to create a 
larger national security infrastructure. We have some 
initiatives such as the security governance initiative that was 
a step in the right direction, but I believe there's more that 
we can do.
    I also think it's critical that we invest in police. 
Currently, according to the security systems monitor, police 
receive less than two percent of U.S. funding allocated for Sub 
Saharan African security forces.
    Two, we need to make state fragility and politics a 
priority. There's a consensus that preventative measures that 
address underlying drivers of extremism are more effective and 
less expensive than a counterterrorism only approach. It's also 
important that we address the political obstacles to having a 
domestic response to terrorism. This is particularly relevant 
in Nigeria and Mali.
    Third, we need to stand up for human rights and democracy. 
This isn't just a feel good policy. It's about an effective 
counterstrategy, counterterrorism strategy. If a government is 
guilty of gross human rights violations, it's in the U.S. 
interests to first withhold assistance and then take all 
necessary measures to resume engagement.
    Finally, we need to broaden our international and domestic 
coalition. The United States is neither capable nor suited to 
be all response to every extremist and security challenge in 
the region.
    We should recruit more foreign partners, more domestic 
partners to contribute to this counterterrorism effort, 
including Africa media, legislators, judges, and civil society 
stakeholders to do burden sharing but also to increase local 
ownership.
    Thank you.
    Mr. Lynch. Thank you.
    Mr. Akwei, you are now recognized for five minutes.

  STATEMENT OF ADOTEI AKWEI, DEPUTY DIRECTOR FOR ADVOCACY AND 
          GOVERNMENT RELATIONS, AMNESTY INTERNATIONAL

    Mr. Akwei. Thank you, chairman Lynch, Ranking Member Hice, 
for this opportunity to testify in front of you. My comments 
will focus on the impact of counterterrorism efforts on the 
respect and protection of human rights. As my colleague has 
just noted, this is not just about feeling good or doing the 
right thing. It's actually in the United States' best 
interests. I am going to focus on the initiatives in the Sahel 
and in Somalia.
    I think the first thing to say is U.S. counterterrorism 
efforts and those of their allies are resulting in grave human 
rights violations that may constitute war crimes and are 
arguably having a negative impact on counterterrorism efforts. 
Congress can and must play a role in the strategic rebalancing 
and rethinking of the counterterrorism strategy, first, by 
ending the false argument that to ensure security, it is 
necessary to sacrifice human rights. The two are linked and are 
dependent on each other.
    Congress must press for the prioritization of human rights 
in future national counterterrorism strategies. It must also 
press for the rebalancing of a highly militaristic focused 
strategy at the moment which has only created a bigger 
battlefield and dependency on arms that has been shown to be 
unsustainable in other regions of the world.
    There must also be more comprehensive holistic approaches 
such as those that are espoused in the Global Fragility Act of 
2019 as well as the Women Encountering Violent Extremism Act of 
2019, all of which focus on building the capacity of civil 
society, in particular, of women, and also of taking--looking 
at the drivers of fragility which Mr. Devermont has also 
mentioned.
    Another area must be accountability for U.S. partnerships 
and for U.S. partners. This includes credible, transparent 
investigations into rights violations and ensuring that those 
responsible for those violations are held accountable.
    I'd like to acknowledge Congress' leadership already in 
this area in this year's NDAA where there are provisions on the 
State Department making--mandating it to do a better job 
receiving reports on civilian casualties of air strikes and 
also on creating a fund for victims and survivors of 
inadvertent military strikes.
    Finally, I would say that the U.S.--that Congress must 
press the executive branch to work with African partner 
governments and civil society to review and reform problematic 
antiterrorism legislation and policies that violate 
international and regional human rights standards. For example, 
the practice of using military courts to try civilians, 
something that should never happen.
    I'm going to look at two particular areas, the role of 
antiterrorism legislation and the erosion of the rule of law 
and abuses by security forces that are partners to the United 
States. There are numerous African countries that have passed 
antiterrorism or prevention acts that have vague definitions of 
terrorism. I would add that that term has not actually been 
defined under international law and that many of these laws 
greatly expand police powers and the role and the ability of 
the military to create lists of suspected terrorists, to freeze 
bank accounts of organizations, to shut down media houses, and 
to harass and arrest members of the media. This includes Kenya. 
It includes Ethiopia. It includes Nigeria. These laws are also 
combined with others that reduce political space and civil 
space and also create a repressive environment.
    The impact of Nigeria's laws, for example, has resulted in 
the case of over 20 journalists and media operations being 
attacked verbally as well as facing arbitrary arrest and 
detention. Similar type legislation has been used in Tanzania--
in Cameroon to great, great effect. The Cameroonian legislation 
actually allows military courts exclusive jurisdiction to try 
civilians and the Minister of Defense to appoint and assign 
military judges. This raises serious concerns about due process 
and independence of the judicial process.
    We at Amnesty gained firsthand knowledge of the lengths to 
which the Cameroonian Government would use this antiterrorism 
law when we began working on the case of Ivo Feh in 2014, a 27-
year-old student who was jailed for 20 years for sending a text 
to his friends where he joked that getting a job in Cameroon 
was harder--was so hard that it was probably easier to get into 
the armed group Boko Haram. His message was read by a teacher. 
His two friends were arrested, and he, along with them, were 
charged with trying to organize a rebellion against the state. 
He remains in jail.
    The security force abuses that Amnesty has documented since 
2015 are alarming. They include mass killings, torture, 
arbitrary detention, and malnutrition, denial of food. This 
directly contributes to recruitment opportunities for armed 
extremist organizations, and it should be of alarm to almost 
anyone trying to stop those kinds of organizations.
    This is not only against the people that the military 
considers to be threats. It's, unfortunately, also against 
victims of Boko Haram attacks.
    Amnesty is working with a group of 2,000 women who survived 
years of kidnapping by Boko Haram only to face sexual violence 
and rape by the Nigerian military guards in exchange for food 
and water and even healthcare. Thousands have died. These women 
have bravely gone on to make a list of their husbands and sons 
who were separated from them when they were liberated and have 
not been seen since.
    I'll end, I know I'm over my time, by saying again that 
these are the kinds of abuses that do not help counterterrorism 
efforts. They're not in the national interest of the United 
States, and of course, they also tend to alienate the 
populations of the impacted communities. We now need a more 
balanced approach which is holistic and advice-oriented. I'll 
stop there.
    Mr. Lynch. Thank you. The gentleman yields.
    Ms. Arieff, you are now recognized for five minutes.

  STATEMENT OF ALEXIS ARIEFF, SPECIALIST IN AFRICAN AFFAIRS, 
                 CONGRESSIONAL RESEARCH SERVICE

    Ms. Arieff. Chairman Lynch, Ranking Member Hice, members of 
the subcommittee, thank you for inviting the congressional 
Research Service to testify today. I will focus particular 
attention on current trends in west Africa's Sahel region which 
falls within my area of specialization at CRS, along with U.S. 
responses and considerations for congressional oversight. My 
testimony draws on the input of CRS colleagues who cover other 
parts of the continent and related issues.
    Islamist militants are part of a conflict ecosystem in the 
Sahel that also involves ethnic separatists, communal defense 
militias, and criminal actors. Mali, and increasingly Burkina 
Faso, are epicenters. As is the case in other parts of Africa, 
Islamists armed groups in the Sahel do employ terrorist tactics 
and several have pledged allegiance to al-Qaeda or the Islamic 
State. In some cases, their attacks have targeted and killed 
western nationals including several American civilians and 
military personnel as you mentioned. Most, however, operate 
primarily as local insurgent movements that seek to undermine 
and attack state presence and control.
    In several areas of the Sahel, Islamist armed groups 
reportedly perform parallel state functions, including as 
security providers, tax authorities, and justice and mediation 
figures. To be clear, local civilians and local security forces 
have endured the overwhelming brunt of fatalities attributed to 
these groups, as well as the devastating humanitarian impact of 
conflicts involving them.
    Hundreds of thousands of civilians have been displaced. 
Millions are facing food insecurity. Nonetheless, some local 
communities may appreciate some of the services these groups 
provide, particularly in the context of an absent or predatory 
state.
    As I describe in further detail in my written testimony, 
the conflicts involving Islamist armed groups in the Sahel 
exemplify several attributes that pose particular challenges to 
U.S. and other international response efforts. I'd like to 
highlight four of them here.
    First, Islamist militancy in the Sahel is locally led and 
resilient. These groups appear to rely primarily on local 
sources of funding, including criminal activities which can 
pose challenges to sanctions enforcement and effectiveness.
    Second, western and African-led military interventions can 
curtail armed groups' territorial control, but they have not 
translated into durable security gains on the ground.
    Third, affected governments face competing policy and 
security priorities which may not align with those of the 
United States.
    Finally, abuses by state security forces and state-backed 
militias appear to be driving recruitment in some areas.
    I'd like to close by identifying a key challenge and 
related consideration for congressional oversight efforts. 
Notwithstanding ongoing U.S. direct counterterrorism strikes in 
Libya and Somalia, successive U.S. administrations have stated 
the desire to maintain a light U.S. military footprint in 
Africa. Capacity building efforts and cooperation with local 
partners, what DOD officials refer to as working by, with, and 
through, are thus at the forefront of the U.S. counterterrorism 
tool kit in Africa along with development assistance aimed at 
addressing the drivers of violent extremism. Yet almost by 
definition, the partners whose capacities the United States 
seeks to develop are likely to be weak and/or problematic for 
other reasons.
    If local political conditions, abuses by state actors, and 
perceived impunity play a key role in driving Islamist 
extremists mobilization in Africa as multiple studies suggest, 
then additional security assistance and/or development aid, for 
that matter, may not effectively reverse negative trends absent 
significant changes and approach on the part of local 
authorities.
    Such changes might include, for example, putting an end to 
militias that engage in torture and extrajudicial killings, 
punishing abusive or corrupt soldiers, officials, and judges, 
and making concessions to minority communities that may be 
politically painful.
    From an oversight perspective, it is not always possible 
for Congress to obtain a comprehensive view of all U.S. 
financial, operational, and personnel commitments to 
counterterrorism efforts in Africa. There are some fair reasons 
for this, including the difficulty of untangling funding and 
personnel dedicated to broader security governance or 
stabilization aims.
    At the same time, regarding security assistance 
specifically, Congress has imposed varying notification and 
reporting requirements on different types of U.S. 
counterterrorism aid that are provided to African countries. 
For example, the notification and reporting requirements that 
Congress has attached to State Department security assistance 
accounts are not nearly as detailed as for DOD's global train 
and equip program.
    Insofar as a lack of precision in the information provided 
to Congress can obscure the country and unit recipients of U.S. 
security assistance such as training and equipment, this 
renders oversight related to human rights and other policy 
concerns more challenging. It can also impede efforts to 
measure and gauge the effectiveness of U.S. counterterrorism 
aid and the ability of partner countries to absorb it.
    Thank you, and I look forward to your questions.
    Mr. Lynch. Thank you.
    Mr. Meservey, you're now recognized for five minutes.

 JOSHUA MESERVEY, SENIOR POLICY ANALYST, AFRICA AND THE MIDDLE 
                 EAST, THE HERITAGE FOUNDATION

    Mr. Meservey. Chairman Lynch, Ranking Member Hice, and 
members of the committee, thank you for the opportunity to 
testify today. My name is Joshua Meservey. I'm the Senior 
Policy Analyst for Africa and the Middle East at The Heritage 
Foundation. The views I express in this testimony are my own 
and do not necessarily represent the official position of The 
Heritage Foundation.
    The current African terrorism landscape is grim. Islamist 
terrorist groups have proliferated in the Sahel region, and 
many operate at a high tempo. There are now at least 10 
Islamist terrorist groups active in that region. Traditionally, 
only al-Qaeda and the Islamic Maghreb was active there.
    Groups in regions we do not usually associate with Islamist 
terrorism have emerged and are among the most brutal of all 
African terrorist organizations. Al-Shabaab in northern 
Mozambique, a group distinct from Somalia's Al-Shabaab, is 
capable enough to have recently killed a number of Russian 
mercenaries.
    The ISIS linked allied democratic forces that operates 
primarily in the Democratic Republic of Congo razes villages 
and executes civilians in appalling fashion. Even relative 
success stories are showing warring sides, Al-Shabaab in 
Somalia lost most of its major strongholds years ago, but it 
maintains its operational capacity, controls significant 
territory, and benefits from stalemates into which the conflict 
there has descended.
    Boko Haram in northeast Nigeria is resurgent after losing 
most of its territory five years ago, and its splinter group, 
Islamic State West Africa Province or ISWAP, conquered hundreds 
of square miles of territory earlier this year alone and 
frequently overruns Nigerian military bases.
    The Nigeria and Somalia examples in particular highlight 
the importance of good governance for achieving any sustainable 
successes against African terrorist groups. In Somalia, 
politicians spend too much time and energy struggling for 
political power rather than delivering security and justice 
sufficient to give their citizens reason to resist Al-Shabaab.
    In Nigeria, corruption enervates the security services, and 
the government has failed to address the environment in the 
northeast that makes groups like Boko Haram and ISWAP appealing 
to some. This enabling environment, characterized by people 
within it feeling a sense of marginalization and injustice, is 
one pillar of the terrorist phenomenon in Africa.
    The U.S. can help address this element of the problem, 
though African partners have to lead the way. Military 
operations are a part of the right approach as judicious 
military action can degrade terrorist groups enough to provide 
governments time and space to address the enabling 
environments. The U.S. can also increase its support for civil 
society organizations which are critical to the development and 
maintenance of responsive and honest government.
    The other pillar of the Islamist terrorist problem is the 
fundamentalist literalist interpretation of Islam that 
motivates the hard core of these groups. This problem is more 
difficult for the U.S. to address as it is a battle that has to 
be won by the many Muslims who interpret their faith in a 
tolerant way. The U.S. can ask Muslim countries and 
organizations that are proactively battling the extremist 
ideology what help it can give them.
    Progress in the fight against African terrorism will 
require committed, wise, and persistent action in concert with 
like-minded Nation. Specifically, here are some steps the U.S. 
can take. Lead the diplomatic efforts in Libya. Libyan 
instability fuels terrorism in North Africa and the Sahel. 
Getting the many states involved in Libya working together to 
stabilize the country will be hard, but the U.S. is the only 
power with sufficient diplomatic heft to have a chance of 
success.
    Advocate for reforming MINUSMA, the U.N. peacekeeping 
operation in Mali. MINUSMA is currently inefficient and 
terribly dangerous to serve in, and its mandate does not 
reflect the reality that it is fighting a war. MINUSMA's non-
war fighting element should be stripped away, and its mission 
must be integrated into a broader regional strategy.
    Pressure countries that export extremist ideologies. It is 
incumbent upon countries to stop any remaining exports of 
radical Islamist ideologies such as Salafism. They must also 
actively undertake the long and difficult work of undoing the 
damage proselytizing Salafism has done across the world, 
including in Africa.
    Work with affected countries to create a strategy for 
managing returning foreign fighters. Many of the thousands of 
captured ISIS fighters will likely be repatriated to their home 
countries, including to African countries that do not have 
sufficient capacity for rehabilitating or prosecuting them as 
appropriate. Other terrorists who avoided capture will, as some 
already have returned spontaneously as well.

    Thank you again for allowing me to present my thoughts 
today and for your interest in a difficult problem that hurts 
American interests.
    I look forward to any questions you may have.
    Mr. Lynch. Thank you very much. I now yield myself five 
minutes for questions.
    Just the landscape across Africa, I mean, it's such a huge 
place. It's been very difficult for us, even with a 
considerable level of resources, to really move the needle at 
all in terms of strengthening the rule of law, establishing 
independent judiciaries, and creating conditions where some of 
the other more traditional or more military sponsored programs 
can actually succeed.
    Given the fact that we have a limit on resources that we 
can dedicate to this, you know, and I acknowledge that, you 
know, the current administration may be frustrated with certain 
allocations and doesn't see the progress that we've been--in 
the programs that we've been funding thus far.
    Where are the areas where you think we could plus up, you 
know, our appropriations and target areas that have a greater 
chance of success and more meaningful success? Not just trying 
to eliminate existing terrorist organizations, but also 
creating conditions that would give us some resilience in these 
countries like Mali, like Burkina Faso, that would prevent 
those organizations from reemerging once we defeat them?
    Ms. Arieff.
    Ms. Arieff. Far be it from me or CRS to advise Congress on 
appropriations. What I can say----
    Mr. Lynch. Well, how about where would we be best in 
focusing and trying to make a difference?
    Ms. Arieff. What I can say is that it's--U.S. support to 
rule of law programming and judicial sector support, there are 
programs like this in Africa, including in places like Mali and 
Burkina Faso where those programs may show more success. There 
seems to be greater political will on the ground among local 
authorities to make structural changes and to hold their own 
judicial actors and security forces accountable.
    So, there is sometimes a disconnect between the areas where 
there is clearly greatest need for change and the areas where 
there's the greatest willingness to change, and thus, where 
U.S. assistance may find a willing partner.
    Mr. Lynch. I see.
    Mr. Akwei, anything further on that?
    Mr. Akwei. Yes. I think there are two different channels, I 
think, that should be focused on. One, of course, is what you 
mentioned at the beginning of your statement which was 
increasing the international affairs budget and protecting that 
because that's where the investment in civil society as well as 
national institutions will happen. Those kinds of programs 
can't just be flatlined which is still progress. They need to 
be increased because that shows where the United States 
considers its priorities to be.
    The other is that, while I do agree with Alexis about 
finding the areas where reform is most likely to be well 
received, there are a couple--there are two countries, I think, 
that cannot be allowed to fail, and that's Nigeria and Cameroon 
because they're so large. Victory or, shall I say, the failure 
of the counterterrorism efforts against Boko Haram in both of 
those countries will have irreparable effect on the region. 
Those are the most problematic in terms of the security forces, 
in terms of the ability of the judiciary to hold anyone 
accountable, and unfortunately, in Cameroon, political 
willingness to even engage in a dialog about what they're doing 
on counterterrorism.
    But those would be the two countries that I would say there 
needs to be hard-nosed, U.S. high level diplomacy about 
changing tactics and direction.
    Mr. Lynch. Great.
    Mr. Devermont.
    Mr. Devermont. Thank you. I want to reinforce something 
that my colleagues on the panel have said in terms of that in 
countries where the security problems are viewed as urgent and 
existential where you have civil society, the political 
opposition putting pressure on the Federal Government or the 
government to react, I think we see better outcomes. So, I 
would make a couple of suggestions around that.
    First, that we tend to as a U.S. Government spend a lot of 
time on critiquing governments that aren't doing well and not 
enough on the countries that are doing well and creating some 
sort of demonstrative effect over highlighting countries or 
individual actors who are taking these problems seriously.
    Two, I think that the media is under-resourced, over-
stretched, sometimes politicized, but in African countries when 
there's media pressure on their governments, when they shed 
light on abuses, I think that that's probably the most 
effective anecdote to the problem set than necessarily the 
international community wagging their finger.
    And third, all of this, I think, comes down to community 
policing and local governance, and it is historically not where 
we have put our resources in into African police, and it's not 
where African governments put their resources in. I'd like to 
see more policing efforts that are successful, that have leased 
the community, that can provide law and order so they don't 
create openings for extremists to enter in.
    Mr. Lynch. My time has expired.
    I now yield five minutes to the gentleman from Georgia, Mr. 
Hice, the ranking member.
    Mr. Hice. Thank you. Thank you, Mr. Chairman.
    Mr. Meservey, is it accurate to say that Islamic-linked 
violent acts and fatalities and so forth have doubled each year 
since 2016?
    Mr. Meservey. Yes. The Africa Center for Strategic Studies 
has--there was a recent paper that made that claim, and I think 
it's correct based on the data we have.
    Mr. Hice. So, how many terror groups are we talking about 
that are operating in West Africa?
    Mr. Meservey. It depends how you count a little bit, but 
it's around 10 discrete organizations.
    Mr. Hice. Okay. Has that increased since 2016?
    Mr. Meservey. Yes. I think there's been a few new ones. 
It's--they split and merge and morph----
    Mr. Hice. Right.
    Mr. Meservey [continuing]. So, it's--it is difficult 
sometimes to track.
    Mr. Hice. Does that contribute to the increase that 
there's--obviously, I would think it would--with the increase 
in terror groups? But doubling every year since 2016, that's an 
alarming number. Has international intervention in the region 
helped to curb any of the violence?
    Mr. Meservey. So, the primary international intervention in 
that region are the French forces who have been there for some 
years. My assessment of that initiative is that they are very 
good at taking out high level targets. They've had some 
successes in killing a number of leaders which is important, 
but it's not part of a holistic solution, and they're 
overstretched. I think they have about 2,500 personnel there in 
a vast area, so there's some local initiatives and regional 
initiatives, primarily G5 Sahel. That's nascent. It's made up 
of five Sahelan countries, and early returns have not been very 
positive on their effectiveness.
    Mr. Hice. Ms. Arieff, you're nodding. You obviously agree 
with that. You alluded to it in your opening statement as well.
    Ms. Arieff. Yes.
    Mr. Hice. You do. Okay.
    Ms. Arieff. I agree with the statement that the early 
returns on G5 Sahel initiatives have not been promising.
    Mr. Hice. Okay. So, what are the--I'll come back, Mr. 
Meservey. What are the economies like in these regions?
    Mr. Meservey. Well, these are--some of these countries are 
desperately poor, frankly. Niger is one of the poorest 
countries on earth. If you look at the U.N. human development 
index, none of them would be even middle income. These are all 
very under-resourced economies.
    Mr. Hice. So, are young people joining these groups because 
it, in itself, is an opportunity, an economic opportunity? Does 
the economy drive some of the growth of the terror groups?
    Mr. Meservey. Some of it. So, people join terrorist 
organizations for a whole host of reasons. Some are truly 
ideological in that they believe--they subscribe to this 
radical Islamist ideology that says we must kill infidels----
    Mr. Hice. Right.
    Mr. Meservey [continuing]. Which are primarily Muslims who 
don't agree with them, but some, yes, join for tribal reasons, 
for instance, for a paycheck.
    Mr. Hice. So, I want to focus on the economic side. Ms. 
Arieff, would you--do you agree that--or what's your position 
on the role of the economy in some of these poor areas?
    Ms. Arieff. Poverty and a sense of desperation, no doubt, 
help explain why people might be motivated to join an 
insurgency, but it doesn't seem to be enough. What seems to 
really be the trigger is a coherent political narrative that 
says you're poor because your community has been excluded from 
the fruits of the economy or the fruits of political 
participation in this country or sector.
    Mr. Hice. Right. So, I mean, I understand that there's 
multiple factors involved, all right. We can't solve all of it. 
But just from an economic perspective, if the economy were 
improved, the things, avenues that we could take in the United 
States to help improve the economies of some of these countries 
that would potentially at least to some degree help with the 
growth of terrorist organizations?
    Mr. Meservey?
    Mr. Meservey. Yes. I think that's true. I think the biggest 
factor is for people to have hope and to feel like they have 
some sort of say in the political process, for instance, and 
some sort of autonomy in deciding their own fates.
    So yes, absolutely having a job as a young person, for 
instance, can ameliorate that sense of hopelessness and 
marginalization and injustice, as Alexis was saying, 
contributes or appears to be the trigger for radicalization in 
a lot of these places.
    Mr. Hice. Okay. One other question along these lines. What 
has been more successful, the presence of military presence or 
providing financial aid to countries? What is most effective?
    Mr. Meservey. In countering terrorism?
    Mr. Hice. In countering terrorism.
    Mr. Meservey. It's really hard to measure. Military 
operations are easier to measure in the sense that you can 
count dead bodies, more or less, in the sense of terrorists 
you've killed.
    I think humanitarian development aid, as it's currently 
structured, has never proven to be effective in alleviating 
poverty. It's good in crisis situations sometimes, things like 
that, but sustainable poverty alleviation has to be based on a 
free market intervention and a free market model which goes 
back to the governance issue. You need a requisite level of 
competent governance in order to create an environment where 
people can enjoy the benefits of a free market, and then that 
will help alleviate that poverty.
    Mr. Hice. Thank you very much.
    I yield back.
    Mr. Lynch. The chair now recognizes the gentleman from 
Arizona, Mr. Gosar, for five minutes.
    Mr. Gosar. Thank you, Mr. Chairman.
    Mr. Meservey, I'm going to go along that same line in 
regard to economics, and you made some important assertions.
    So, let's talk about China. You know, China's One Belt, One 
Road initiative is undermining a lot of the economies within 
Africa. Not only do they take an extorsive repayment by 
utilizing that resource, but they use their own labor. So, the 
host countries actually see this actually being done, that 
they're actually being stolen from in a manner of aspects, and 
then they see that they don't even get to reap a job out of 
that to create this infrastructure.
    So, what kind of implications do you see with the 
involvement and the continuation of the One Belt, One Road 
initiative with China's complicity to undermining these stable 
governments?
    Mr. Meservey. I think One Belt, One Road is clearly a 
challenge for U.S. national interests around the world 
including in Africa. I think it's an attempt to replace the 
U.S.-led international order with a Chinese centric one. And 
specific to infrastructure in Africa, it's a mixed bag, 
actually, Chinese-provided infrastructure. I think some of 
these infrastructure projects are white elephants, essentially, 
but others actually could provide some sort of economic 
benefit.
    The problem is that there's opacity around virtually all of 
these transactions, so we're not even sure what the terms of 
the contracts state, for instance, so we don't know what the 
interest rate is. We don't know the terms of repayment, things 
of that nature.
    I think there's a lot of corruption involved in the signing 
of these contracts where the Chinese have a clear model of 
engaging at the most senior possible levels and lavishing those 
people with various blandishments, including outright bribery, 
and then that facilities landing these sorts of contracts.
    Then, of course, there's this tide loan model where they 
will offer financing on the condition that a Chinese company 
execute the project. So, you can have an African government 
take on $4 billion of debt, and none of that money actually 
ever passes through that government's treasury, for instance.
    So, as I say, I have deep concerns about One Belt, One 
Road. Some of the infrastructure I actually think is helpful in 
Africa. Some, I think, is again, a white elephant and 
essentially an excuse for leadership of an African company to 
line its own pockets and the Chinese company to make a fat 
profit.
    Mr. Gosar. So, you know, going back to the one the speaker 
talked about, we don't do enough about the nations that are 
doing good, so you're isolating this problem. That's kind of 
where I'm focusing on: that is how do we involve ourselves in 
that dichotomy? Because if there's no economic--as you said, if 
you give foreign aid, it's got a mixed bag. It doesn't really 
help. But if you empower people to have a job, to be involved 
in the upright building of their country, you get a lot of 
extra benefits because of that. So, what--how do we handle 
that, and on the vast expanses of Africa?
    Mr. Meservey. Yes. I--to be clear, I do think there are 
some uses for foreign aid. I don't think it's all negative, of 
course, but vis-a-vis how do you develop or help countries to 
develop these sorts of environments where entrepreneurs can 
flourish. I think incentivizing U.S. businesses to get more 
involved in Africa is part of this equation. Africa remains a 
bit of a scary word for some American companies, but trying to 
educate them on the opportunities there is just part of it.
    I think working with government--identifying governments 
that we have a chance to have an impact with. Honestly, I think 
some African governments, the problems are so entrenched that 
the U.S. isn't going to make much headway, but others we do 
have an opportunity to work with them on improving their 
governance.
    So, you know, we've talked about civil society here. I 
think that's a critical part. We can be creative around 
anticorruption measures which, again, is a critical part of 
good governance. Technology gives us all sorts of possible not 
solutions but tools to attack this problem.
    So, I think--I actually think Prosper Africa, the Trump 
administration's--the pillar of its Africa strategy, has the 
right idea where, you know, focusing on the economic aspect, 
focusing on trade, things of that nature. But fundamentally, 
these governments themselves have to reform and do better, and 
the U.S. is limited in the sorts of tools we can bring to bear.
    So, we can provide an example. We can make the case for 
rule of law. We can incentivize our companies and encourage 
them to get involved, but fundamentally, the African 
governments themselves have to decide that this is the route 
they want to go.
    Mr. Gosar. Thank you.
    I yield back.
    The Chairman. The gentleman yields. The chair now 
recognizes the gentleman from Louisiana, Mr. Higgins for five 
minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Meservey, by historical standards, the United States is 
providing record levels of counterterrorism resources to 
African countries. Despite this investment of American treasure 
and resources, the number of terrorist attacks has greatly 
increased as some terrorist organizations--several--fight to 
gain influence across the continent.
    You have stated you believe that the U.S. needs to 
coordinate closely with our European allies to curb the 
violence perpetrated by terrorists. Is that correct, you stated 
that?
    Mr. Meservey. Yes.
    Mr. Higgins. And what exactly do you believe--explain to 
the American people what you believe the international 
community must do to help in this effort.
    Mr. Meservey. I think there is a host of things. One is 
coordinate with one another. So, there is a variety of 
countries working on----
    Mr. Higgins. For instance, France is greatly involved. 
Perhaps make an example of the French and American effort and 
investment of treasure and assets in the African continent to 
fight terrorism. And what would our other European allies need 
to contribute?
    Mr. Meservey. Yes, they would need to contribute some of 
the same. So, different--one specific area I will talk about is 
paramilitary police. I think Judd talked a bit about police. 
But the U.S. doesn't actually have a paramilitary police force; 
that is not our model. There are countries--France, for 
instance, or the Italians or the Carabinieri--who do. And that 
sort of force is really useful in a counterterrorism operation 
because they provide the civil policing but they can also carry 
out essentially military operations.
    So, that is one area where you can have a division of 
labor. And that requires coordination, where the U.S. needs to 
be talking with the French or the Italians or other countries 
that can provide that sort of support and say, ``Look, we are 
handling ISR, we are handling lift, we are handling other types 
of logistics and training. You can provide paramilitary police 
training, for instance, and we can facilitate that in, you 
know, various ways.'' So, that sort of coordination I think is 
the start.
    And, more generally, you know, when I say ``coordination,'' 
what I really mean, I guess, is a larger strategy, where all 
the involved countries--and there are many of them--sit down 
and talk to one another and decide, ``This is the way forward 
for this collective effort.'' Because the Sahel problem, alone, 
is far too difficult and too large for any one country, 
including the United States, to handle.
    Mr. Higgins. You described it as a collective effort. 
Recently, our administration, at the executive level, has 
encouraged our NATO allies to shoulder a greater burden with 
the expense and the overall endeavor of the NATO mission. Would 
you equate this as parallel? And why would our other European 
allies not be invested in Africa?
    Mr. Meservey. Yes, I think the Europeans actually have 
greater interests in the Sahel region than the United States 
does, because it produces so many of the immigrants that they 
are worried about----
    Mr. Higgins. So, do you agree that greater pressure should 
be brought to bear upon our European allies to highlight their 
obligation to join in the struggle against terrorist activities 
in Africa and to share the burden of treasure invested and 
assets invested?
    Mr. Meservey. It depends which ally we are talking about. 
So, the French are doing a lot, for instance. They lose 
soldiers and that sort of thing. But, yes, I think other 
European countries need to be encouraged to look at their own 
interests.
    I would include Middle Eastern countries is this as well. 
So, the Saudis, for instance, have pledged money to this 
effort, but they haven't actually delivered, so that----
    Mr. Higgins. Yes, sir.
    Mr. Meservey. Yes.
    Mr. Higgins. Let me ask you, what positive outcomes--let's 
just try and close on a positive note here. What positive 
outcomes have you seen? And, ultimately, why do you believe the 
United States must remain engaged in fighting terrorist 
organizations in Africa?
    Mr. Meservey. Yes, I think the greater lesson of 9/11 was 
that, if you allow these groups to have a safe haven even 
halfway across the world, they will eventually turn their 
attention to the United States. I think in Africa most of the 
groups are locally focused, absolutely, but they still have a 
hardcore who subscribe to this transnational ideology that 
believes the United States is one of its absolute primary 
enemies.
    And beyond that, beyond that potential threat to the 
homeland, is the attacks on American interests in those 
regions, the large-scale humanitarian disasters that result 
from attacks, the movement of people, the unmanaged movement of 
people across borders and up into Europe and elsewhere. These 
are all problems for the United States that needs to focus our 
attention.
    And I think, unfortunately, African terrorism has gotten a 
bit of short shrift because of the problems in the Middle East, 
but all the trends are in the wrong direction in Africa--oh, 
you asked for something positive. Sorry.
    You know, I have said that Somalia is of concern, and it 
is, but I will say, Al Shabaab has not been able to retake 
significant amounts of its territory that it lost five or six 
years ago. Boko Haram is making a comeback, but it still 
doesn't control nearly as much territory as it once did----
    Mr. Higgins. I thank you for your clarification.
    Mr. Meservey. Yes.
    Mr. Higgins. Mr. Chairman, I would like to say that your 
leadership in holding this hearing is a positive sign. It 
heightens the awareness that the children of God in Africa face 
and our commitment as a Nation to join the world's forces to 
stand against the oppression that the people there face every 
day. So, thank you for holding this hearing.
    Mr. Lynch. I thank the gentleman.
    Let me ask--I certainly support this whole-of-government 
counterterrorism approach, right? But, as the gentleman from 
Louisiana points out, you have situations where--let's use 
Nigeria as an example--where you have a huge population, great 
growth there, a lot of natural resources. They have oil. They 
have a lot of the elements that you would need to have a stable 
and productive country.
    Then you have other areas, I would say in western Niger, 
maybe some areas of Mali, that are so remote they have really 
become lawless regions, where there is no government capacity 
there that we can support, right? It is just a lawless region.
    How do we strike the right balance? You know, that is what 
I am struggling with, Mr. Devermont, in terms of getting the 
right balance to, you know, recognizing that--you know, on this 
committee, we generally visit countries that are not doing 
well. That is the nature of our job, right? And the common 
denominator is usually a lack of an independent judiciary and a 
weak rule-of-law regime. That is, like, the recipe for a failed 
state. We have grappled with our ability to create that. It is 
great when you have something to work with, you have maybe a 
couple of strong leaders and, you know, a recognition for 
individual rights and respect, you know, for basic rights, 
basic human rights. But, in other cases, we have nothing to 
work with.
    You know, we have budgetary restraints here. We can't fund 
every single thing we would like to fund. We have to spend our 
money wisely. You know, if we are going to invest the 
taxpayers' money, we have to make sure that we have a 
reasonable opportunity for success, and we have a duty to make 
sure that we invest that money wisely.
    What is the balance, you know, in terms of, should we look 
at places like Nigeria and try to help them take that next 
step? Or, you know, do we look at, sort of, the military 
solution that we are confronted with in some of these lawless 
spaces? How do you, you know, strike the right balance?
    Mr. Devermont. Thank you for that question, sir.
    I think that you have to look at will, capacity, and what 
are the stakes. And I think that you provided two very good 
examples to show that.
    So, my argument would be, in Nigeria, this is largely an 
issue of will. I just returned from the region on Saturday, and 
what is happening in the northeast, where Boko Haram and ISWAP 
operate, is not on the front pages of the newspaper. It is not 
a part of the political discourse. There is a general checking 
out of this conflict. I think, unfortunately, the stakes are 
too high for both us and the Nigerians to do that.
    Our investments in Nigeria should not be around capacity, 
at least at first. It should be about creating some political 
will to address these problems seriously. Then we can talk 
about building capacity so they use those resources in an 
appropriate way and so that we can be accountable to our 
taxpayers.
    Niger is a different story, because I believe that 
government has significant will to address this problem and 
very little capacity. Even when in periods over the last couple 
years where they have, I think, dipped in probably the wrong 
approach, in terms of supporting ethnic militias, they then 
course-correct.
    And given the recent attack that left 71 of their soldiers 
dead, you can see that they both feel the urgency of this 
problem set and are looking to do better. So, I would be 
focused, in the Niger case, on capacity-building.
    That is how I would break it down when I look across the 
continent: Who has the will and not the capacity? Who has the 
will and the capacity? And who has neither?
    Mr. Lynch. Mr. Akwei, do you want to add anything to that?
    Mr. Akwei. I think I agree with Judd. The only thing I 
would add would be that--I think my colleague from The Heritage 
Foundation said the key thing, that for sustainable, successful 
CT, this has got to be owned by African governments but not 
just African governments. It has to be the general population. 
That has to drive this political will.
    I think one of the things that is really disappointing is 
just what Judd said about the lack of intensity about what is 
going on in the north and the erosion of the whole nation-state 
in the northwest and northeastern provinces in Nigeria.
    The other thing I would also argue is that the messaging 
from the United States can be much stronger about the 
importance of good governance--and that has taken a big hit--in 
terms of respect for rule of law and respect for rights. 
Because the closing space is shutting down the voices that 
would amplify that our troops have to do the right thing, that 
our military, that our police have to respect the--and that 
there is actually a justice system that people can trust.
    It is not a question of not having resources. It is a 
question of justice----
    Mr. Lynch. Right.
    Mr. Akwei [continuing]. And hope, and that they are going 
to be treated fairly. That is where we are losing this battle, 
on the ideas and the values.
    Mr. Lynch. Very good.
    I am now going to yield to the gentleman from Louisiana, 
Mr. Higgins, for five minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Akwei, I would like to ask you, because of your 
background and your service to Amnesty International--and we 
thank you for that. All of us in this body support individual 
rights and freedoms and protections across the globe. It should 
be in our nature, and I believe it is.
    But you have stated, I believe, that you oppose what you 
refer to as the militarization of U.S. policy in Africa. So, I 
would just ask you to clarify for us, how shall we accomplish 
stability across the densities of population in Africa? How can 
we help these communities stand up and embrace economic 
prosperity, religious freedoms, protections, even basic access 
to clean water and healthy food, decent education, improved 
infrastructure, control over their own destiny?
    If they cannot be safe, which--if you have an opposing 
military presence, then we must have a supportive military 
presence, a defensive military presence. That is my opinion. 
So, how would you clarify your own posture regarding the United 
States' policy there, sir?
    Mr. Akwei. Sir, I completely--I want to clarify, Amnesty is 
not a pacifist organization. We fully understand and respect 
that there is an urgent threat and that there is an urgent 
need. So, we are not talking about throwing away all of the 
support and assistance that the United States provides.
    What we are saying is that there is an imbalance and that 
the investments that need to happen in terms of improving 
governance for all of the things that you listed are being 
shortchanged and that those are the only things that are going 
to make a sustainable type of response to CT.
    Mr. Higgins. I think that is an intelligent clarification, 
and I thank you for that. Let me interject at that point in 
your statement. Is that lack of balance being driven by United 
States mandated policy, or is that imbalance, as you call it, 
being driven by requests from the nation-states and the 
officials thereof, based upon what they are asking for?
    Mr. Akwei. I think it is being driven by both. I certainly 
would say that the difference between what the nation-state 
governments are asking for is not always the same thing as all 
of the people in the country.
    Mr. Higgins. Ah, so there we go to my point. How do we 
determine this, good sir? As an American policy driven by the 
best of intentions, how do we determine what is actually and 
truthfully righteous and in the best service of the citizens--
--
    Mr. Akwei. Sir, I think that----
    Mr. Higgins [continuing]. Of Africa that are suffering?
    Mr. Akwei. And that is really the result of a dialog that 
is inclusive coming from these African countries. Our problem 
has been that we have been listening to only one voice, and 
that makes sense because it is government talking to 
government. But, unfortunately, in many of these countries, it 
is not representative government that you are talking to.
    Mr. Higgins. What about the voice of nongovernment 
organizations? Because they certainly have a voice that is 
heard----
    Mr. Akwei. But not in those countries.
    Mr. Higgins [continuing]. On Capitol Hill. They have a 
constant presence in my office. I don't know about the 
chairman's.
    Mr. Akwei. No, no, sir. Here in the United States, 
absolutely, you are giving us this great honor of having a 
dialog with us. My colleagues in African countries don't get 
that kind of dialog.
    Mr. Higgins. Ah.
    Mr. Akwei. So, this is where this silence and this lack of 
engagement then feeds this potential pool of recruitment for 
these organizations.
    Mr. Higgins. Do you believe that our European allies can 
help us to bridge that lack of access to communications?
    Mr. Akwei. I don't think we have a choice. They have to be 
involved. I think my colleague from The Heritage Foundation 
said that, that this is not the job of one country. It is not 
the job of even a group of countries. It is basically a 
holistic--it is inclusive. This is going to need real a hearts-
and-minds type of approach where everybody benefits from and 
owns the response.
    Mr. Higgins. All right. Thank you, sir, for your answers.
    Mr. Chairman, we have a rather historic moment here where 
Amnesty International and The Heritage Foundation are on the 
same page for the betterment of mankind.
    I yield.
    Mr. Lynch. I duly note the gentleman's observation. I 
agree.
    Look, I would like to thank the gentleman. I would like to 
thank our witnesses for their testimony today.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to the 
witnesses for response. I ask our witnesses to please respond 
as promptly as you are able.
    Mr. Lynch. Again, I want to thank you for your thoughtful 
observations. We are still searching for a way, how best to 
address this issue, and I think that your comments today were 
instructive and very thoughtful and helpful. So, I thank you 
for your attendance here today.
    This hearing is now adjourned. Thank you.

                                 <all>
</pre></body></html>
